     Management Advisory Report




Single Audit of the State of Utah for
the Fiscal Year Ended June 30, 2013




       A-77-14-00016 | August 2014
Single Audit of the State of Utah for the Fiscal Year Ended
June 30, 2013
A-77-14-00016
August 2014                                                                 Office of Audit Report Summary

Objective                                   Findings

To report internal control weaknesses,      The single audit reported inaccuracies in the State Agency Report of
noncompliance issues, and                   Obligations for SSA Disability Programs (Form SSA-4513) and the
unallowable costs identified in the         Time Report of Personnel Services for Disability Determination
single audit to the Social Security         Services (Form SSA-4514) for the quarter ended
Administration (SSA) for resolution         September 30, 2012.
action.
                                            Recommendation
Background
                                            We made recommendations to SSA in a prior report for corrective
The Utah State Auditor conducted the        actions on these findings. We confirmed that SSA took the
single audit of the State of Utah. SSA      appropriate corrective actions to address these findings. The
is responsible for resolving single audit   corrective actions occurred subsequent to the auditor reporting the
findings related to its Disability          findings in the current single audit. Therefore, we will not repeat
programs. The Utah State Office of          the recommendations.
Rehabilitation is the Utah Disability
Determination Services’ (DDS) parent
agency.
MEMORANDUM
Date:      August 5, 2014                                                              Refer To:

To:        Gary S. Hatcher
           Senior Advisor
           Records Management and Audit Liaison Staff
From:      Inspector General
Subject:   Single Audit of the State of Utah for the Fiscal Year Ended June 30, 2013 (A-77-14-00016)

           This report presents the Social Security Administration’s (SSA) portion of the single audit of the
           State of Utah for the Fiscal Year ended June 30, 2013. 1 Our objective was to report internal
           control weaknesses, noncompliance issues, and unallowable costs identified in the single audit to
           SSA for resolution action.

           The Utah State Auditor performed the audit. The results of the desk review conducted by the
           Department of Health and Human Services (HHS) concluded that the audit met Federal
           requirements. In reporting the results of the single audit, we relied entirely on the internal
           control and compliance work performed by the Utah State Auditor and the reviews performed by
           HHS. We conducted our review in accordance with the Council of the Inspectors General on
           Integrity and Efficiency’s Quality Standards for Inspection and Evaluation.

           For single audit purposes, the Office of Management and Budget assigns Federal programs a
           Catalog of Federal Domestic Assistance (CFDA) number. SSA’s Disability Insurance (DI) and
           Supplemental Security Income (SSI) programs are identified by CFDA number 96. SSA is
           responsible for resolving single audit findings reported under this CFDA number.

           The Utah Disability Determination Services (DDS) performs disability determinations under
           SSA’s DI and SSI programs in accordance with Federal regulations. The DDS is reimbursed for
           100 percent of allowable costs. The Utah State Office of Rehabilitation is the Utah DDS’ parent
           agency.

           The single audit reported inaccuracies in the State Agency Report of Obligations for SSA
           Disability Programs (Form SSA-4513) and the Time Report of Personnel Services for Disability
           Determination Services (Form SSA-4514) for the quarter ended September 30, 2012. 2 The
           corrective action plan indicates a new accountant was trained in completing the reports and a


           1
            State of Utah, Single Audit Report Fiscal Year Ended June 30, 2013
           http://financialreports.utah.gov/saoreports/2013/2013SingleAuditReportStateofUtah.pdf (last viewed July 18, 2014).
           2
               Id. at findings 2013-041 and 2013-042.
Page 2 - Gary S. Hatcher

review and approval process is in place to ensure the reports are accurate prior to submission to
SSA.

We made recommendations to SSA in a prior report for corrective actions on these findings. 3
We confirmed that SSA took the appropriate corrective actions to address these findings. The
corrective actions occurred subsequent to the auditor reporting the findings in the current single
audit. Therefore, we will not repeat the recommendations.

If you have questions, please contact Shannon Agee at (877) 405-7694, extension 18802
or Shannon.Agee@ssa.gov.




                                                     Patrick P. O’Carroll, Jr.

Attachment

cc:
Lynn Bernstein




3
 SSA OIG, Management Advisory Report, Single Audit of the State of Utah for the Fiscal Year Ended June 30,
2012 (A-77-14-00002), November 2013.
                                           MISSION
By conducting independent and objective audits, evaluations, and investigations, the Office of
the Inspector General (OIG) inspires public confidence in the integrity and security of the Social
Security Administration’s (SSA) programs and operations and protects them against fraud,
waste, and abuse. We provide timely, useful, and reliable information and advice to
Administration officials, Congress, and the public.


                                   CONNECT WITH US
The OIG Website (http://oig.ssa.gov/) gives you access to a wealth of information about OIG.
On our Website, you can report fraud as well as find the following.
   •   OIG news                                  In addition, we provide these avenues of
   •   audit reports
                                                 communication through our social media
                                                 channels.
   •   investigative summaries
   •   Semiannual Reports to Congress                Watch us on YouTube
   •   fraud advisories                              Like us on Facebook
   •   press releases
                                                     Follow us on Twitter
   •   congressional testimony
   •   an interactive blog, “Beyond The              Subscribe to our RSS feeds or email updates
       Numbers” where we welcome your
       comments


                          OBTAIN COPIES OF AUDIT REPORTS
To obtain copies of our reports, visit our Website at http://oig.ssa.gov/audits-and-
investigations/audit-reports/all. For notification of newly released reports, sign up for e-updates
at http://oig.ssa.gov/e-updates.


                          REPORT FRAUD, WASTE, AND ABUSE
To report fraud, waste, and abuse, contact the Office of the Inspector General via
   Website:        http://oig.ssa.gov/report-fraud-waste-or-abuse
   Mail:           Social Security Fraud Hotline
                   P.O. Box 17785
                   Baltimore, Maryland 21235
   FAX:            410-597-0118
   Telephone:      1-800-269-0271 from 10:00 a.m. to 4:00 p.m. Eastern Standard Time
   TTY:            1-866-501-2101 for the deaf or hard of hearing
